      FEDERAL ELECTION COMMISSION 

       OFFICE OF INSPECTOR GENERAL 





                FINAL REPORT 


2008 Audit of Procurement and Contract Management 


                 September 2009 

         Audit Assignment No. OIG-08-02 





                                         MANAGEMENT CONSULTANTS &

                                        CERTIFIED PUBLIC ACCOUNTANTS

                                                TABLE OF CONTENTS





EXECUTIVE SUMMARY .................................................................................................... 1 


SUMMARY OF FINDINGS .................................................................................................. 4
 

BACKGROUND ..................................................................................................................... 6
 

OBJECTIVES, SCOPE AND METHODOLOGY .............................................................. 7
 

FINDINGS AND RECOMMENDATIONS ......................................................................... 9
 

1.	    Lack of Adequate Acquisition Planning and Pre-Award Administration ............... 9
 

2.	    Process for Approving Contract Awards Requires Improvement.......................... 17
 

3. 	   Lack of Adequate Oversight and Monitoring of Procurement Activities .............. 19
 

4.	    Contracting Data Reported in the Federal Procurement Data System is not 


       Accurate........................................................................................................................ 23
 

5.	    Payments on Time-and-Materials, and Labor-Hour Contracts, were not 


       Adequately Supported................................................................................................. 26
 

6.	    Contract Close-out Procedures are not Compliant with the FAR .......................... 27
 

7.	    Lack of Adherence with Information Technology Management Reforms............. 28
 

8.	    Blanket Purchase Agreements were not Used in Accordance with FAR ............... 31
 

9.     Contract File Recordkeeping is Incomplete .............................................................. 32
 

Attachment 


SUMMARY OF FINDINGS, RECOMMENDATIONS AND MANAGEMENT’S 

RESPONSE…………………………………………………………………………………37 

                                       September 2009 

                                  AUDIT OF PROCUREMENT

                                AND CONTRACT MANAGEMENT


                              FEDERAL ELECTION COMMISSION 

                                  EXECUTIVE SUMMARY 


The Office of Inspector General (OIG) of the Federal Election Commission (FEC) contracted
with Regis & Associates, PC to conduct a performance audit of the procurement and contract
management policies and procedures used by the FEC and to determine whether the FEC is
complying with the policies and procedures, and applicable federal acquisition laws and
regulations.

The audit included a review of approximately $27.6 million of various types of procurement
instruments (e.g. contracts, purchase orders, blanket purchase agreements, and one specified
interagency agreement) awarded/executed by the Procurement and Contracting Office in
fiscal years 2006 through 2008. The following table illustrates the total number and dollar
values1 of procurement instruments selected for testing, compared to the population available
for testing.

                                                               Total Sample             Population Dollar
     Procurement Type                 Items Sampled
                                                               Dollar Values                 Values
Blanket Purchase Agreement                   12                   $1,216,706
Purchase Order                               15                     $523,406                 $9,686,143
Delivery Order                               28                   $2,364,739
Contracts                                    34                  $18,677,876                $26,898,844
Interagency Agreement                         1                   $4,850,000                $14,951,314
Totals                                       90                  $27,632,7262               $51,536,3042

The results of our audit testing show that, overall, the agency may not have received goods
and services within the contract terms, and that the Office of Procurement and Contract
Management (Procurement Office) did not adequately document and assess its acquisition
processes, procedures, and management controls. Our audit of the FEC’s procurement and
contract management activities identified nine significant issues that are preventing the
Procurement Office from achieving compliant and effective functions. Specifically,
improvement is needed in the following areas: acquisition planning and pre-award
administration; process for approving procurement awards; oversight and monitoring of
procurement activities; contracting data reported in the Federal Procurement Data System;
payments on time-and-materials, and labor-hour contracts; contract close-out compliance
with the Federal Acquisition Regulation (FAR); compliance with the Clinger-Cohen Act on
information technology investments; blanket purchase agreement usage; and contract file


1
  These values represent the obligations recorded in FEC financial systems as provided by agency staff. Regis 

& Associates, PC did not audit the values and did not perform additional procedures to determine whether the

values were materially correct. 

2
  Variances between sample/population dollar values and totals relates to rounding. 




                                                       1

recordkeeping. Our nine findings and fifteen recommendations are summarized in the
section titled Summary of Findings, starting on page 4.

According to FEC personnel, there have been three contracting officers in the last five years.
From January 2008 through March 2008, the FEC was without a Contracting Officer.
During this time, personnel were given contracting authority to act as Contracting Officers;
however, they did not have the requisite training and knowledge in all aspects of the FAR. In
March 2008, the FEC employed a Contracting Officer who is knowledgeable in the FAR;
however, this individual was not present for several months in 2009 due to military
commitments. A contractor performed the Contracting Officer’s duties until the Contracting
Officer returned. Availability of federal employees with the skills and qualifications
necessary to manage complex procurement functions of an agency, such as the FEC remain
in continual short supply. As an Executive Associate Director at Office of Management and
Budget (OMB) stated, “Agencies need to hire more acquisition professionals to manage
contracts better, improve upfront pricing for large procurements, conduct market research
and leverage the government’s buying power better.” In its 2009 High Risk Series, the
Government Accountability Office (GAO) continued to include Managing Federal
Contracting More Effectively as one of its high risks facing government. The GAO devotes a
significant effort conducting audits of procurement practices in various agencies and
reporting results and recommendations to be used as a resource and guidance for all federal
agencies. The FEC allots between 28 to 31 percent of its total budget to the procurement and
contracting for goods and services.

Since March 2008, the Procurement Office has taken steps to implement improvements in its
procurement and contract functions. For example, in early 2008, the Contracting Officer
instituted a formal Contracting Officer’s Technical Representative training program, and has
begun to update FEC’s procurement policies and procedures. In order to ensure procurement
and contract management functions are conducted in an efficient and effective manner for the
agency, desired products and services are delivered at the lowest cost, and are not subject to
fraud, waste or abuse, the FEC must devote adequate resources to addressing the findings and
recommendations included in this report.

The FEC is required to perform an annual internal controls assessment as part of the Federal
Managers’ Financial Integrity Act (FMFIA). The requirements of FMFIA serve as an umbrella
under which other reviews, evaluations and audits should be coordinated and considered to
support management’s assertion about the effectiveness of internal control over operations,
financial reporting, and compliance with laws and regulations. Internal control assessment
instructions for the agency is contained in Directive 53, Implementation of A-123: Internal
Control Review, July 21, 2005. As part of the annual assessment process, the agency
prepares and presents an Annual Certification on Internal Controls on the agency’s overall
internal control framework in the Management's Discussion and Analysis section of its
Performance and Accountability Report. In 2006, the agency's financial statement auditors
identified three (3) audit findings relating to procurement.

       1) For several prominent documents meeting the criteria for approval by the
       Commissioners’, approval was not clearly documented or provided to us for review.
       Other procurement transactions were not approved by all the individuals in the


                                              2

       approval chain or were signed by the same individual for more than one position in
       the approval chain.

       2) For one of 45 sample items the total obligations and disbursements exceeded
       the contract amount. Although the disbursements were determined to be legitimate,
       the contract was not modified for the increase in obligation.

       3) There were several incidents where documents intended to support approval of
       procurement and disbursement actions were not properly submitted for approval,
       supported or maintained by the agency.

In 2007, the financial statement auditors assessed one (1) internal control weakness as
remaining unresolved and reported in a management letter that the FEC should, "Ensure
documentation related to procurement and disbursement actions are properly approved and
supported. Procurement policies and procedures should be enhanced to document,
completely and clearly, operating procedures for the procurement cycle and should include
procedures for documenting justification when exceptions are made to established
procedures." No material weaknesses relating to procurement and contract management
were identified by management or the financial statement auditors in the 2007 and 2008
PAR. Given the results of this performance audit, FEC management should review its
control assessment processes prior to providing certifications of internal controls and
compliance with laws and regulations relating to procurement, contract management, and the
Federal Acquisition Regulations.




                                             3

                                        SUMMARY OF FINDINGS


                  Findings                                            Recommendations
1.   Lack of Adequate Acquisition Planning and   1a.     The Contracting Officer should finalize and implement
     Pre-Award Administration                            policies and procedures to ensure that all aspects of
                                                         procurement planning and pre-award activities are performed,
                                                         as required under the FAR.
                                                 1b.     The FEC should establish and implement a continuous
                                                         monitoring program to ascertain the quality of its procurement
                                                         activities and ensure consistency in procurement planning and
                                                         awards.
                                                 1c.     In addition to the Director of Procurement, employed by the
                                                         FEC, and delegated the responsibility of Contracting Officer;
                                                         the FEC should consider and address the need to establish
                                                         adequate human capacity in procurement management to
                                                         reduce the risk to the agency during periods of absence of the
                                                         Contracting Officer.

2.   Process for Approving Contract Awards       2a.     The Procurement Office should fully enforce the agency's
     Requires Improvement                                policies on required approvals before executing procurement
                                                         awards and modifications.

3.   Lack of Adequate Oversight and Monitoring   We recommend that the Procurement Office:
     of Procurement Activities
                                                 3a.     Ensure that COTRs and contract points of contact are
                                                         provided with adequate training, written responsibilities, and
                                                         appropriate monitoring tools necessary to accomplish the
                                                         objectives of their delegated responsibilities.

                                                 3b.     Monitors and advises COTRs and contract points of contact to
                                                         ensure that they perform their responsibilities, as required
                                                         under FAR and best practices recommended under DCAA
                                                         guidelines.

4.   Contracting Data Reported in the Federal    4a.     The FEC Procurement Office should establish processes to
     Procurement Data System is not Accurate             consistently and accurately report contract amounts in FPDS-
                                                         NG.

                                                 4b.     The FEC should provide adequate oversight of FPDS-NG
                                                         reporting and review the amounts reported, to ensure that they
                                                         agree with contract values.

5.   Payments on Time-and-Materials and          5a.     The FEC should develop a communication and training plan
     Labor-Hour Contracts are not Adequately             to ensure that contracting personnel fully understand the
     Supported                                           requirements of FAR as they relate to payments on Time-and-
                                                         Materials and Labor-Hour Contracts.

6.   Contract Close-Out Procedures are not       6a.     The FEC Procurement Office should immediately institute
     Compliant with the FAR                              formal contract close-out procedures, and establish and
                                                         implement adequate internal control over the contract
                                                         administration process.




                                                        4

                     Findings                                         Recommendations
7. 	 Lack of Adherence with Information          7a.     The FEC should establish a formal project review group to
     Technology Management Reforms 	                     adhere to information management technology reforms and
                                                         federal agency responsibilities, consistent with the intent
                                                         under the Clinger-Cohen Act. Specifically, the project review
                                                         group should:
                                                                  •	 Develop a formal charter,
                                                                  •	 Include representatives across the agency to
                                                                       include staff from OCFO, Budget and
                                                                       Procurement areas; and
                                                                  •	 Document key decisions to include information
                                                                       technology priorities and retain records of
                                                                       meeting minutes and decisions.

8.   Blanket Purchase Agreements were not Used   8a.     The FEC should review FAR guidance on different
     in Accordance with FAR                              procurement instruments, such as BPAs, and institute policies
                                                         and procedures to ensure that the instruments are used as
                                                         prescribed. We also recommend that management obtain and
                                                         review multiple bids as part of the BPA procurement process.

9.   Contract File Recordkeeping is Incomplete   We recommend that the Procurement Office:

                                                 9a.     Implement procedures to ensure that adequate documentation
                                                         is maintained and retained in the contract files. This process
                                                         should be sufficient to enable supervisory review of the
                                                         contract files to ensure compliance.

                                                 9b.     Ensure that procurement files are adequately stored in a
                                                         manner that facilitates retrieval, and that files are archived and
                                                         destroyed according to its NARA approved record schedule.

                                                 9c.     Take the necessary steps to maintain evidence of vendors’
                                                         CCR registration in the contract files.




                                                        5

                                     BACKGROUND 

The Federal Election Commission (the FEC) is an independent regulatory agency responsible
for interpreting, administering, enforcing and defending the Federal Election Campaign Act
(the FECA). As part of this task, the FEC promulgates regulations implementing the FECA
Act’s requirements, and issues advisory opinions that respond to inquiries from those
affected by the law. Additionally, the FEC has jurisdiction over the civil enforcement of the
FECA Act. Finally, FEC attorneys handle civil litigation arising out of any legal actions
brought by, or against, the FEC.

The FEC is headed by six Commissioners, appointed by the President, and confirmed by the
Senate. Commissioners serve a six year term, and no more than three Commissioners may
represent the same political party. By statute, the Commission’s chairmanship rotates every
year, and the designated chairman has limited authority to set the agency’s agenda.

Under the Commissioners, the FEC’s organizational structure is separated into four primary
offices: the Office of the Staff Director (OSD), the Office of the General Counsel (OGC),
the Office of Inspector General (OIG), each headed by a statutory officer, and the Chief
Financial Officer (CFO). Subordinate offices to the General Counsel are titled Associate
General Counsels, and each supports one or more of the three core FEC programs.
Subordinate organizations to the Staff Director are in most cases called “offices” for staff
support activities and “divisions” for line activities that are involved in one or more of the
three core programs. Programmatic elements under the Office of the Staff Director include
the Disclosure Division, Information Technology, Information Division, the Press Office,
Reports Analysis Division (RAD), and the Audit Division. The Office of Inspector General is
headed by the Inspector General and reports directly to the Commission. The Office of the
Chief Financial Officer manages Finance, Budget and Procurement, and reports directly to
the Commission.

In FY 2008, the FEC was provided 375 full time equivalent employees and a budget of $59.2
million, of which approximately 67.3% was budgeted for staff salaries and benefits, 7.4% for
office space rental, and 25.3% for all other expenses. The FEC is located in Washington,
DC, and has no regional offices.

The FEC’s Procurement Office procures goods and services, valued from approximately $13
million to $17 million annually, through contracts, delivery orders, purchase orders, blanket
purchase agreements and interagency agreements, which represents approximately 30 percent
of its annual appropriation. The FEC enters into a variety of contracts that range significantly
in dollar value, duration and complexity. The extent of contract management varies,
depending on the size, nature, complexity and risk profile of each contract.

The Office of Inspector General (OIG) of the FEC contracted with Regis & Associates, PC to
conduct a performance audit of the procurement and contract management policies and
procedures used by the FEC to determine whether the FEC is complying with the policies
and procedures, and applicable federal acquisition laws and regulations.



                                               6

                OBJECTIVES, SCOPE AND METHODOLOGY 


The objectives of the audit were to determine whether the Procurement Office has met the
following:

Objective 1 - Procured supplies and services in an efficient and effective manner, and in
compliance with applicable laws, regulations, policies, and procedures;

Objective 2 - Developed internal Bulletins, Directives, policies and procedures that comply
with applicable laws and regulations whether they and are used to direct procurement
activities throughout the Commission;

Objective 3 - Reported accurately, its procurement statistics to the General Services
Administration;

Objective 4 - Received the goods and services in accordance with contract terms;

Objective 5 - Used procurement information to manage procurement operations effectively
and efficiently;

Objective 6 - Closed contracts in a timely manner;

Objective 7 - Established effective internal controls with regard to procurement and contract
monitoring; and,

Objective 8 - Documented and assessed its acquisition processes, procedures, and
management controls in accordance with the Federal Manager’s Financial Integrity Act.

The scope of the audit included a review of purchase instruments (contracts, purchase orders,
blanket purchase agreements, delivery orders) awarded and executed by the Procurement
Office in fiscal years 2006-2008. The sample included a number of pre-selected, high risk
instruments, all contracts greater than $500,000, one or more instruments from each agency
division, where possible, and a number of random and judgmental items to complete the
initial sample level of seventy-nine (79) procurement instruments. We also selected eleven
(11) sample items from procurements initiated since March 2008, since the current
contracting officer was hired by the agency. Our professional services were limited to a
review of the procurement and contract management functions of the FEC’s Procurement
Office, to include: performing a review of a sample of purchases identifying significant
control risks in the policies and procedures of the FEC; and determining compliance with
governing laws, in accordance with the Federal Acquisition Regulation.

We conducted the audit from October, 2008 through July, 2009, in accordance with
Government Auditing Standards, 2007 revision. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions, based on our audit objectives. We believe that the evidence



                                               7

obtained provides a reasonable basis for our findings and conclusions, based on our audit
objectives.

The audit methodology was designed to utilize a risk-based approach. To achieve our audit
objectives, we reviewed policies and procedures governing the procurement and contracting
process; conducted interviews and walk-through procedures with appropriate personnel to
document our understanding, and observation of the actual processes in place; identified high
risk areas; conducted a detailed review of the sampled procurement files; and surveyed
personnel responsible for contract monitoring and oversight. Our sample included a total of
ninety (90) sample items, which include thirty-four (34) contracts, twenty-eight (28) delivery
orders, fifteen (15) purchase orders, twelve (12) blanket purchase agreements, and one (1)
interagency agreement.

The audit included a review of approximately $27.6 million of various types of procurement
instruments (e.g. contracts, purchase orders, blanket purchase agreements, and specified
interagency agreements) awarded/executed by the Procurement and Contracting Office in
fiscal years 2006 through 2008. The following table illustrates the total number and dollar
values3 of procurement instruments tested, compared to the population available for testing.

                                                               Total Sample             Population Dollar
     Procurement Type                 Items Sampled
                                                               Dollar Values                 Values
Blanket Purchase Agreement                   12                   $1,216,706
Purchase Order                               15                     $523,406                 $9,686,143
Delivery Order                               28                   $2,364,739
Contracts                                    34                  $18,677,876                $26,898,844
Interagency Agreement                         1                   $4,850,000                $14,951,314
Totals                                       90                  $27,632,7264               $51,536,3044

Additional procedures were conducted by the Office of Inspector General (OIG) on ten (10)
of the ninety (90) sample items to analyze the timing of available funding, presentment and
payment of vendor invoices and requests for contract modifications by the Contracting
Officer’s Technical Representative (COTR). We reviewed the OIG’s methodology and
tested the results on a sample basis. We agreed that the OIG’s methodology was reasonable,
and we relied on the OIG’s results in the findings included within this report.




3
  These values represent the obligations recorded in FEC financial systems as provided by agency staff. Regis 

& Associates, PC did not audit the values and did not perform additional procedures to determine whether the

values were materially correct. 

4
  Variances between sample/population dollar values and totals relates to rounding. 




                                                       8

                    FINDINGS AND RECOMMENDATIONS



1. 	   Lack of Adequate Acquisition Planning and Pre-Award
       Administration
Acquisition planning is the process by which the efforts of all personnel responsible for an
acquisition are coordinated and integrated through a comprehensive plan for fulfilling an
agency’s need in a timely manner and at a reasonable cost. This includes developing an
overall strategy for managing the acquisition. The plan must address all the technical,
business, management, and other significant considerations that will control the acquisition.
When performed correctly, acquisition planning ensures that the requirements are presented
in a way that promotes full and open competition, as well as identifies impediments that
could delay the acquisition or lead to increased cost or technical risk. Normally, acquisition
plans that propose other than full and open competition due to compelling needs or concerns
relating to availability of funds are not approved when the urgency is based on a lack of
advance planning (FAR 6.301(c)), Other than full and open competition. Our review of the
acquisition planning and pre-award procedures and processes at the Federal Election
Commission (FEC) noted the following:

A. 	   Formal Acquisition Plans were not Documented

Written acquisition plans were not documented to facilitate attainment of acquisition
objectives. We noted no acquisition plans in the procurement files, but specifically, we noted
three large contracts, included in our sample, valued at approximately $12 million, did not
have written acquisition plans. These contracts are listed in the table below.

                                                                                  Amount
       Project Title                       Services Description
                                                                                  Obligated
 Data Conversion and         Services to convert data from documents filed by
 Collection                  committees required to disclose federal campaign     $5,101,664
                             activity
 1032 Off-load Project       Services to upgrade FEC's legacy Disclosure system
                                                                                  $4,457,382
                             to a web-based platform
 Disaster Recovery Plan      Services to migrate FEC's existing DRP to a COOP
 (DRP) and Continuity of     supported by a comprehensive and high quality        $2,315,895
 Operations (COOP)           DRP

We also noted that multiple bids, as required by the FAR, were not obtained for 11 of the 15
purchase orders; 13 of the 28 delivery orders; and 6 of 12 blanket purchase agreements
included in our sample. We tested 90 sample items, of which 34 were contracts or delivery
orders tested as contracts, due to the complexity of the procurement. Of the 34 contracts
tested, the FEC procured 25 under sole source arrangements. While the majority of the sole
source procurements had justification and approval documentation included in the files,
many of the justifications lacked key elements required by the FAR.


                                               9

FAR Part 7.1, Acquisition plans, provides extensive regulations relating to acquisition plans,
requirements for agency management, and the requirements for contents of a written
acquisition plan. The applicable FAR reference sections are summarized below:

       	 Subpart 7.102, Policy, states that agencies shall perform acquisition planning and
          conduct market research in order to promote and provide for acquisition of
          commercial items. If commercial items suitable to meet the agency’s needs are
          not available, non-developmental items should be used, to the maximum extent
          practicable. In both instances, full and open competition should be used to the
          maximum extent practicable.
       	 Subpart 7.103, Agency-head responsibilities, also states that the agency head or a
          designee shall prescribe procedures to ensuring that acquisition planners address
          appropriate requirements to promote and provide for full and open competition,
          establish criteria and thresholds to define when a written acquisition plan is
          required and ensuring that agency planners on information technology
          acquisitions comply with the capital planning and investment control
          requirements.
       	 Subpart 7.105, Contents of written acquisition plans, states that written
          acquisition plans typically includes acquisition background and objectives such as
          statement of need, applicable conditions, cost, capability of performance, delivery
          or performance period requirements, and trade-offs, etc. The acquisition plan
          should also include a plan of action highlighting potential sources, competition,
          source selection procedures, acquisition considerations, budgeting and funding
          options.

For the three contracts listed on the previous page, due to the extended service delivery
period, technical complexity, and changing technological options for service solutions, a
procurement plan should have been prepared and updated throughout the procurement
lifecycle to ensure that the agency met its needs in the most effective, economical and timely
manner.

B.     Pre-Award Administration Requires Improvement

Pre-award administration is the process of implementing the acquisition plan developed as
the first phase of procurement. Pre-award administration was not adequately performed to
ensure best value to the FEC with respect to procurement actions. Our review of pre-award
administration at the FEC noted the following:

       1)      Development of Statements of Work

       Generally, we found that statements of work were prepared as part of acquisition
       planning; however, we identified three procurement actions, two purchase orders and
       one contract that were not supported by statements of work, as required under FAR
       Subpart 8.405-2, Ordering Procedures for Services Requiring a Statement of Work.
       For example, in procurements 6AD0402 and 7AD001, which were labor hour



                                              10

contracts for Budget Analyst services, statements of work were not prepared. Our
review also noted that statements of work were prepared mostly as part of acquisition
planning; however, in many instances critical elements were lacking in those
statements of work, such as reasonable performance standards and metrics. Also,
deliverables were not always defined in the statements of work. For example, in a
procurement valued at $420,680, the statement of work included tasks for the services
of a Senior Design Developer to develop a new data entry access system, provide
database administrator support, and Crystal Report expertise to augment the FEC’s
in-house IT staff in the development of 1032 offload reports. The required
deliverables described in the statement of work were weekly status reports and levels
of effort to be reported in hours. The statement of work, however, should have also
included deliverables that documented the requirements, testing plan, and testing
results for the system developed. In another procurement valued at $628,720, the
statement of work indicated that the services were for development and maintenance
tasks, and the scope of work included four tasks related to converting legacy
processes and systems to FEC’s newly developed systems. However, technical
requirements for the services to be performed were not included in the statement of
work. In addition, the deliverables included a design document, but testing was not
required to ensure that the systems converted were operating as intended.

Further, we noted deficiencies in some statements of work relating to the failure to
include appropriate contract clauses. Clauses are important elements of contracting
because they define, and in some cases limit, contract terms and allow for contract
revision and cancelation. For example, we identified four (4) out of the thirty-four
(34) contract files reviewed that did not include certain clauses, as required under the
FAR. Specifically, we noted the following:

     •	 Contract numbers 6AC0156 and 7AC0156 did not include FAR Clause
        52.232-18, Availability of Funds, to indicate that the pricing was contingent
        on the availability of funds.
     •	 For contract number 6AC0147, the contract modifications were properly
        documented; however, the original contract and modifications did not
        include Clause 52.243-3, Changes – Time and Material or Labor Hours, for
        modifying labor hour contracts. We also noted that the original purchase
        request was partially obligated and funded as a result of a continuing
        resolution; however, the original contract did not include the Clause
        52.232.18, Availability of Funds, as prescribed in FAR Section 32.705-1 (a),
        Clauses for contracting in advance of funds.
     •	 A single contract with multiple modifications spanning five years, under
        contract numbers 4AC058, 5AC058, 6AC058, 7AC058, 08C058, and
        08C058X was extended multiple times, but did not include Clause 52.217-8,
        Option to Extend Services, as prescribed in FAR Section 17.208(f),
        Solicitation provisions and contract clauses, nor did the contract terms
        include options. We found that the performance period was extended
        multiple times, rather than specifying option periods or re-competing the
        requirement.


                                       11

     •	 Blanket purchase agreement numbers 6AB0014 and 7AB0014 did not
        include documentation evidencing how the FEC determined whether to
        lease or purchase equipment in accordance with FAR Subpart 7.4,
        Equipment Lease or Purchase. In addition, the proposal provided the cost
        of the lease payments, but did not address the purchase price. Likewise, the
        contract did not include information to document the purchase price, or
        provide a formula showing how the purchase price would be established at
        the time of purchase. Lastly, the contract did not include Clause 52.207-5,
        Option to Purchase Equipment.

2)     Market Research

We identified eleven (11) instances of noncompliance with requirements under FAR
Part 10, Market Research, related to market research. In accordance with FAR Part
10, market research must be conducted to ensure that legitimate needs are identified
and trade-offs are evaluated to meet those needs appropriate to the circumstances
before: (1) developing new requirements, (2) soliciting offers for acquisitions in
excess of the simplified acquisition threshold and (3) soliciting offers with an
estimated value less than the simplified acquisition threshold when adequate
information is not available. Specifically, we identified one (1) blanket purchase
agreement, six (6) purchase orders, and four (4) contract procurements where market
research was not conducted. Conducting adequate market research is essential to
ensuring that procurements are executed in an efficient manner and for the best value.

3)     Full and Open Competition

As a part of our review, the Office of the Inspector General requested that we include
a small sample of active procurements initiated by the current Contracting Officer
(CO). We reviewed a total of eleven procurements and noted that the justification
and approval for one of the two contracts sole sourced was not properly prepared.

According to the FAR 7.102, Acquisition Plans - Policy, (a) Agencies shall perform
acquisition planning and conduct market research (see FAR Part 10) for all
acquisitions in order to promote and provide for –

     (1) Acquisition of commercial items or, to the extent that commercial items
     suitable to meet the agency’s needs are not available, non-developmental items,
     to the maximum extent practicable (10 U.S.C. 2377 and 41 U.S.C. 251, et seq.);
     and
     (2) Full and open competition (see Part 6) or, when full and open competition is
     not required in accordance with Part 6, to obtain competition to the maximum
     extent practicable, with due regard to the nature of the supplies or services to be
     acquired (10 U.S.C. 2301(a)(5) and 41 U.S.C. 253a(a)(1)).




                                      12

4)	      Debarment Review Not Documented

Our review of policies and procedures, and discussions with procurement office
management, indicated that FEC has not established procedures to ensure that it does
not solicit offers from, award contracts to, or consent to subcontracts with contractors
whose names are on the Excluded Parties Listing System (EPLS) or debarment list.
Management of the Procurement Office stated that the debarment list is reviewed on a
daily basis, but the review is not documented. As a result, we were unable to verify
whether FEC reviewed the debarment list for vendors included in our sample to
ensure that the FEC vendors were not debarred from conducting business with the
Government.

5)	      Lack of Guideline on, and Documentation of, Technical Evaluation and
         Price Reasonableness

The FEC's policies and procedures documented in the Commission’s Bulletins 2004-
03, FEC Contracting Procedures, and 2004-04, FEC Procurement Procedures,
indicate that the Contracting Officer, in consultation with the requesting office
program official, is responsible for performing the following tasks:

      •	 Compiling an Evaluation Panel of staff who are responsible for evaluating
         proposals/bids based upon the source selection plan for the acquisition and the
         criteria contained in the solicitation,
      •	 Setting the competitive range and discussing the proposals with offerors, and
      •	 Determining the responsibility of potential awardee.

During the review, we noted the following three areas of weaknesses with respect to
technical evaluation and price comparison:

         a.	 Guidelines Missing in the Draft Policy Regarding When Evaluations
             are Required

         Currently, it is FEC’s policy that the Contracting Officer must send a Task
         Order Contract Award Recommendation Memorandum to the Commission for
         approval for all service contracts valued over $100,000 that are procured using
         the full and open competition or awarded using task order contracting
         methods. These services include software development or operational
         services that are not included in a Commission-approved FEC Management
         Plan. The memorandum is to be prepared by the Contracting Officer and
         forwarded through the requesting office, to the Administrative Officer,
         Deputy Staff Director for Management, and the Staff Director, for review and
         approval. Finally, the recommendation is sent to the Commission for
         approval. The memo provides the name of the proposed vendor and a brief
         description of the overall task to be performed by the vendor, funding
         availability, a brief synopsis of the contracting process, and the criteria that
         was used to select the proposed vendor. These include: 1) project objectives,


                                        13

2) procurement timeline, 3) proposal scores, 4) summary of technical proposal
evaluation points for each offeror, 5) summary of the past performance points
for each offeror, 6) past performance evaluation factor, 7) price proposals, 8)
scoring summary and 9) final recommendation of proposed vendor for award
of the task order contract.

The Contracting Officer is in the process of revising FEC’s policies and
procedures for procurement management. Although the revised documents
have not been fully implemented, we noted that the revised policies and
procedures do not include guidelines establishing when price reasonableness
evaluations are required to be performed. The guidance is necessary to ensure
adequate data is obtained to support the Award Recommendation
Memorandum to the Commission.

b. Evaluation Documentation Not Maintained

As a part of our review, we selected a supplemental sample of eleven (11)
procurements executed in fiscal year 2008, under the current policies and
procedures implemented since March 2008, to determine whether
improvements had occurred in procurement processes. We identified one
delivery order with a base year value of $142,889, and options totaling
$2,098,803, for performance through 2013 that did not include documentation
of the evaluation conducted to select the vendor. The Contracting Officer’s
Technical Representative for the contract provided an approval memorandum,
which indicated that technical approval was given, and that the vendor was the
most suitable to provide the needed services. However, a formal evaluation
process documenting the evaluation tool used, processes performed, and the
basis for decisions reached was not performed. According to the Contracting
Officer’s Technical Representative, several vendors were considered for the
procurement, and several meetings were held by the selection team, but the
assessment and decision was not documented.

c. Price Reasonableness Not Documented

Based on our review of the contract files, price comparison and technical
requirements were not prepared for three (3) of the thirty-four (34) contracts
reviewed. Further, we noted that three contracts and one delivery order had
no documentation to support the determination of price reasonableness.

Failure to perform price reasonableness assessments may have led to
increased costs for the FEC. For example, in a firm-fixed-price contract for
services to convert campaign reporting data to electronic format, the contract
was priced, based on an estimated number of pages, at a per page rate. We
questioned whether the firm-fixed-pricing method was the most advantageous
to the government. According to the assigned Contracting Officer’s Technical
Representative, she recommended that the contract be priced at a per page



                               14

                   rate, based on the actual number of pages converted. However, when the
                   Contracting Officer’s Technical Representative received a copy of the final
                   contract, the former Contracting Officer had priced it based on estimated
                   number of pages converted, at a firm-fixed-price. We judgmentally selected
                   the batch reports for the month of August 2008, to evaluate the difference
                   between the amount paid under the firm-fixed-price contract, and the cost of
                   converting the pages, based on actual pages converted, at the per page rate
                   quoted in the contract terms. Based on our analysis, it appears that FEC might
                   have saved approximately $10,861, for the month of August, had the contract
                   been negotiated and paid at the per page rate quoted.5 The Contracting
                   Officer’s Technical Representative indicated that the contract was being
                   renegotiated, and that an evaluation would be conducted in order to determine
                   the best contract value.

           6)      Lack of Recommendation Memorandum

           In our review of thirty-four (34) contracts included in our sample, we identified five
           (5) contract actions where there was no evidence in the contract file that a
           recommendation memo was sent to the Commission for approval, and signed by the
           Staff Director, as required in the Commission’s Bulletin 2004-03A, FEC Contracting
           Procedures. According to the Bulletin, all contracts and task orders valued at, or
           more than $100,000 are subject to "full and open" competition and the Contracting
           Officer must send a Contract Award Recommendation Memorandum to the
           Commission for approval. The recommendation memo should be signed by the
           Contracting Officer and forwarded through the Administrative Officer, Deputy Staff
           Director for Management, and the Staff Director, for review and approval. The
           memorandum should provide the name of the proposed vendor, and a brief
           description of the overall services to be performed by the vendor, funding availability,
           and a brief synopsis of the contracting process and the criteria that was used to select
           the proposed vendor, including:

                   1) Project Objectives, 

                   2) Procurement Timeline, 

                   3) Proposal Scores, 

                   4) Summary of Technical Proposal evaluation points for each offeror, 

                   5) Summary of the past performance points for each offeror, 

                   6) Past Performance Evaluation Factor, 

                   7) Price Proposals, 

                   8) Scoring Summary and 

                   9) Final recommendation of proposed vendor for award of the task order 

                       contract.

According to FEC personnel, there have been three contracting officers in the last five years.
From January 2008 through March 2008, the FEC was without a Contracting Officer.
During this time, personnel were given contracting authority to act as Contracting Officers;
5
    Assumes that per page rate would remain fixed despite fluctuations in page volume each month


                                                       15

however, they did not have the requisite training and knowledge in all aspects of the FAR. In
March 2008, the FEC employed a Contracting Officer who is knowledgeable in the FAR;
however, this individual was not present for several months in 2009 due to military
commitments. A contractor performed the Contracting Officer’s duties until the Contracting
Officer returned. The conditions noted above resulted from a lack of enforcement of
approval processes, and appropriate monitoring of contracting and procurement activities by
FEC management. Compliance enforcement and monitoring may have been impacted, in
part, by the frequent changes in procurement staff.

As a result of the conditions noted above, we could not determine whether best values were
obtained for the FEC, on procured goods and services because:
    •	 contracts were awarded without adequate competition, thereby decreasing the
        likelihood that the agency achieved value for money;
    •	 statements of work were not adequately developed, thereby decreasing the likelihood
        that the agency received goods and services to meet business needs;
    •	 deliverables were not tied to performance metrics, thereby decreasing the ability to
        monitor service delivery; and
    •	 the FEC did not comply with federal laws and regulations with respect to planning,
        performing, assessing and recording procurement actions and decisions.

Recommendations
1a. 	   The Contracting Officer should finalize and implement policies and procedures to
        ensure that all aspects of procurement planning and pre-award activities are
        performed, as required under the FAR.

1b. 	   The FEC should establish and implement a continuous monitoring program to
        ascertain the quality of its procurement activities and ensure consistency in
        procurement planning and awards.

1c. 	   In addition to the Director of Procurement, employed by the FEC, and delegated the
        responsibility of Contracting Officer; the FEC should consider and address the need
        to establish adequate human capacity in procurement management to reduce the risk
        to the agency during periods of absence of the Contracting Officer.

Management’s Response
1a. 	   Management concurs that acquisition planning is important to ensure effective
        procurement management. Based on the information provided in the audit report,
        Management concurs that the documentation in the contract files can be improved.
        Management does not concur that there are not sufficient procurement policies
        implemented. In October 2008, the Office of the Chief Financial Officer (OCFO)
        issued procurement policies and plans to issue a procurement directive in FY 2010.




                                             16

1b. 	   Management concurs. The OCFO continues to seek opportunities to improve the
        procurement process. As part of the internal control program, OCFO expects to
        establish an internal review of procurement activities.

1c. 	   Management concurs. In FY 2009, OCFO is considering a pilot cross-training plan to
        establish procurement skills in other areas of the FEC to assist with succession
        planning and backup. The OCFO expects to formalize the program in FY 2010.

Auditor’s Comment
1a. 	   Management’s concurrence that acquisition planning is important and that
        improvement is needed in the documentation maintained in the contract files is an
        indication that the policies have not been fully implemented despite
        Management’s non-concurrence. Nevertheless, the agency’s planned actions are
        responsive to the audit issues identified and, when fully implemented, should
        satisfy the intent of the audit recommendation.

1b. 	   Agency’s planned actions are responsive to the audit issues identified and, when fully
        implemented, should satisfy the intent of the audit recommendation.

1c. 	   Agency’s planned actions are responsive to the audit issues identified and, when fully
        implemented, should satisfy the intent of the audit recommendation.


2. 	    Process for Approving Contract Awards Requires Improvement
The FEC's policies and procedures for contracts awarded during our review period are
defined in the Commission’s Bulletins 2004-03A, FEC Contracting Procedures, and 2004-
04A, FEC Procurement Procedures, and Procurement Policy and Procedures (ProcPros)
effective June 12, 2008. We noted that FEC's award process was generally followed during
this period; however, the number of instances of noncompliance with respect to obtaining
required approvals placed the Commission at the risk of executing contracts that had not been
authorized, or more importantly, for which funding was not available. The results of our
testing indicated that approvals were lacking for over 40% of the contracts executed. For
example, we noted that for 14 of the 34 contracts, the purchase requests were not properly
approved. This includes three contracts that lacked the required Budget Office approval for
Information Technology related contracts, valued at $2,500 or above, or contracts executed
while under a Continuing Resolution. We also noted that fifteen (15) contract files did not
contain the funding request memos, and fifteen (15) contract files did not contain the
obligation memos in accordance with the requirements of the Commission’s Bulletin.

Our review of eleven procurement actions executed by the current Contracting Officer noted
that for two of the eleven procurements reviewed, the FEC’s process for obtaining approvals
was not followed. In an Information Technology related contract dated September 12, 2008,
and valued at $277,506, we requested and obtained a printout of the procurement request.
We noted that the individual that electronically approved the procurement action did not have


                                              17

the proper authority for approval, because that individual was not the Director of Budget.
Under FEC's procurement policy, the Director of Budget is to approve all procurement
actions over $10,000.

We noted the following as an example of contract award processing weaknesses for an
Information Technology Division (ITD) service contract spanning two years. The contract
6AC0200 and 7AC0200 had obligation values for the two fiscal years of $1,246,466 and
$289,424, respectively. The initial contract, 6AC0200, was executed on August 14, 2006,
but the funding and obligation memos were not approved until September 29, 2006, six
weeks later. We also noted that one of the modifications was not supported by a purchase
requisition. In November 2006, the vendor submitted invoices totaling $289,424, which
were rejected by the Finance Office due to lack of funding availability on the contract. The
contract file documentation indicated that in addition to the unfunded obligation of
$182,524.74, a recording error totaling $106,899.24 was made on the contract. We also
noted that a former Chief Financial Officer instructed personnel to increase obligations by
$182,524.74, and backdate the obligation to ensure consistency with the obligation memo.
Although the obligation memo for $182,524.74 was located in the payment file, this
document was not in the contract file maintained by the Procurement Office. The exceptions
noted for this procurement highlight a series of processing errors that should not have
occurred if the FEC’s documented procedures had been followed.

The conditions noted above were the result of a lack of proper oversight by the Procurement
Office to enforce the internal policies and procedures, and laws and regulations established in
the FAR. Generally, when purchase requests are not properly approved, the FEC is at risk of
not having funds available when payment is required. Approvals are a necessary control to
reduce the risk of fraud, waste and abuse. Furthermore, on-going projects cannot be
managed as efficiently as a result of delays in paying vendor invoices. The FEC is placed at
risk of work stoppages, and the vendor at risk of delayed or non-payment. As a result of non-
compliance with policies and procedures, there is increased risk of fraud and misuse of
agency funds reserved for procurement activities.

Recommendation
2a. 	   The Contracting Officer should fully enforce the agency's policies on required
        approvals before executing procurement awards and modifications.

Management’s Response
2a. 	   Management concurs. As mentioned in Recommendation #1, the OCFO has
        established a more formal procurement process as outlined by the current
        procurement policy. Additionally, since April 2008, procurement actions are now
        processed electronically through Comprizon. This change has significantly reduced
        financial and budget errors. The OCFO staff also performs reconciliation between
        Comprizon and Pegasys to ensure timely processing of financial documents.




                                              18

Auditor’s Comment
2a. 	     The agency’s planned action is responsive to the audit issues identified and, when
          fully implemented, should satisfy the intent of the audit recommendation.

3. 	      Lack of Adequate Oversight and Monitoring of Procurement
          Activities
As part of the testing conducted, we reviewed 90 procurement files, on a sample basis, to
determine whether documentation was maintained as evidence of active and adequate
contract monitoring activities. Specifically, we reviewed contract files and other records
maintained by Contracting Officers, Contracting Officer’s Technical Representatives
(COTRs) and contract points of contact to determine whether documentation was maintained
that included a description of contract status, contract modifications and justification,
funding, and contractor or vendor performance evaluations. During our review, we noted
that FEC did not conduct adequate oversight and monitoring of contract activities. This was
in large part due to the manner in which the agency planned for, and implemented
procurement oversight activity. We noted the following weaknesses in COTR oversight and
monitoring activities, which are described more fully in the following subsections of this
finding:

       •	 COTRs did not have the necessary training and skills to adequately monitor service
          delivery. Formal training required under the FAR was either outdated, or had not
          been obtained;
       •	 COTR designation letters were either not issued, or were not documented in the
          contract files;
       •	 Contract monitoring activity was not effective;
       •	 COTRs did not have standard processes or tools to document and monitor service
          delivery. Where more complex monitoring tools were used to monitor service
          delivery, they were not used by all COTRs of a business area, nor for all procurement
          actions, as designed by the FEC; and
       •	 There was not evidence to support that vendor technical performance was monitored
          and evaluated.

COTR Training Requirements were not Monitored and Enforced
Federal Acquisition Certification for Contracting Officers’ Technical Representatives (FAC-
COTR) requires that, as of November 27, 2007, all appointed COTRs must be certified no
later than six months from their date of appointment, and must maintain their skills currency
through continuous learning. The FAC-COTR establishes skills and core competencies for
COTRs, and requires a minimum of 40 hours of training every two years. Twenty-two of the
required 40 hours of training must cover the essential core COTR competencies. The FEC
recently conducted training for 15 designated COTRs who required training. According to
the Procurement Director, the intent is to have a "core" group of COTRs complete the full
40-hours of training by December 31, 2009. In addition, a COTR Program is being
established, which was planned to be finalized and issued prior to July 1, 2009.


                                                19

COTR Designations were not Documented
The Commission Bulletins require that the Contracting Officer prepare a memo to the
designated Requesting Office program official, confirming their appointment as the COTR.
We noted that fourteen (14) of the thirty-four (34) contract files did not include designation
memos for COTRs, in accordance with the Commission’s Bulletins. The prerequisite for
COTR designation is adequate training and proper certification. Without formal COTR
designation, the FEC is at risk of deficient monitoring and oversight of procurement
activities.

COTR Monitoring Activity and Tools were not Effective
The Defense Contract Audit Agency Guidelines, best practice guidance for procurement in
the federal government, stipulates that as a technical representative of the Contracting
Officer, the COTR is responsible for administration of the contract/task order, and for
assuring compliance by the contractor with the requirements of the contract/task order. The
COTR’s responsibilities include initiating modifications for changes of work requirements or
funding, monitoring quality of work and approving deliverables, monitoring funding and
costs, approving invoices, and evaluating contractor performance.

During our review, we noted that contracts had large numbers of modifications increasing
funding and extending the period of performance. In many cases, funding and performance
extensions were requested and processed by the COTR at the request of the Finance Division
in order to process a vendor invoice for payment. The need to modify procurements and
provide additional funding should be based on changes in procurement planning and active
monitoring of procurement funding and expenses to date, and not by the presentment of an
invoice by the vendor.

Our detailed review of the payment activity of ten procurements noted that a total of fifty-six
(56) modifications were issued on six of the instruments, primarily as a result of inadequate
funding of the contracts. In addition, there were thirty-five (35) instances of modifications
being issued as a result of invoices submitted by contractors for services already rendered.
These modifications increased the procurement values from $187,054 to $2,100,261. As a
result of deficient funding, we noted repeated instances where the FEC failed to pay vendors
on time, in accordance with the Prompt Payment Act, due to failure to request funding prior
to services being delivered. In many cases, interest was charged due to the late payments by
the FEC. According to FAR 43.102, (a) Only contracting officers acting within the scope of
their authority are empowered to execute contract modifications on behalf of the government
and other Government personnel shall not; (2) act in a manner as to cause the contractor to
believe they have the authority to bind the Government; or (3) Direct or encourage the
contractor to perform work that should be the subject of a contract modification. The
repeated instances of vendors providing services and presenting invoices for payment prior to
the COTR requests for funding indicate that the COTRs breached the FAR.

In addition, we surveyed the COTRs to determine the processes and tools used to monitor
contracts assigned to those employees. Based on the COTRs’ responses to the survey
questions, we noted that the FEC did not have standard processes and tools in place to



                                               20

effectively monitor the progress of contracts. In addition, the Procurement Office does not
provide guidance to COTRs prior to award that describes monitoring activities, tools and
processes that should be used to ensure effective oversight. For example, one COTR
responded that spreadsheets, emails, and timesheets were used to track progress, but it was
not clear whether those tools were appropriate for the procurement being monitored.
According to the Information Technology Division’s (ITD) COTR, weekly status reports and
meetings were the methods used to monitor the progress of IT contracts. Procurements
initiated and managed by the ITD are typically complex, high dollar value, and long-term
projects. It is likely that status reports and meetings would not be sufficient tools or
processes to monitor those procurement activities.

In interviews with the ITD COTR, we learned that that ITD also maintains a database, called
the Visual Source Safe (VSS) system. The VSS system is a tool that allows ITD COTRs to
store contracted service deliverables from the various ITD vendors. Project work plans are
also maintained in the VSS system, which allows ITD COTRs to track project milestones;
however, we noted that the VSS system database was not being used by all project managers
responsible for providing contract oversight. In addition, there is no division policy that
requires ITD personnel to use the VSS system for tracking and maintaining project
deliverables.

We also noted that the ITD COTR was assigned the responsibility for monitoring twenty of
the twenty-seven ITD procurements. Given the complexity of ITD procurement activities, it
is not practical that one individual have monitoring responsibility for that many projects.
The Contracting Officer has recently taken steps to redistribute COTR responsibility more
evenly among staff within the ITD.

Monitoring Technical Performance
We surveyed COTRs to determine whether contractor performance was evaluated after the
completion of tasks and receipt of a final invoice. The eight COTRs that responded to our
survey stated that evaluations were not required after contract tasks had been completed.
Also, we noted that there was no performance evaluation included in any of the 90 sample
procurement files reviewed. Yet, in the case of the ITD contracts, vendors were repeatedly
given sole source contracts for follow-on tasks, without formal evaluations of the prior
services. We reviewed 34 contracts, 27 of which involved tasks related to ITD projects for
systems development and maintenance. According to the Deputy Chief Information Officer,
a testing team was used to verify that the technical performance requirements were met for
systems or components delivered; however, the COTR did not provide results of tests, or
documentation to support that the tests were performed, as indicated.

FAR Subpart 42.302 - Contract administration functions, permits the contracting officer to
delegate the following functions to the COTR:

              Review and approve or disapprove the contractor’s requests for
               payments under the progress payments or performance-based
               payments clauses.




                                             21

              Make payments on assigned contracts when prescribed in agency
               acquisition regulations.
              Manage special bank accounts.
              Ensure timely notification by the contractor of any anticipated
               over-run or under-run of the estimated cost under cost-
               reimbursement contracts.

FAR 43.105 - Availability of Funds, also states that:
(a) The contracting officer shall not execute a contract modification that causes or will cause
an increase in funds without having first obtained a certification of fund availability, except
for modifications to contracts that:
         (1) Are conditioned on availability of funds (FAR 32.703-2, Contracts conditioned
         upon availability of funds); or
         (2) Contain a limitation of cost or funds clause (FAR 32.704, Limitation of cost or
         funds).

Pursuant to OMB Circular A-123, Management’s accountability and control, “within the
organizational structure, management must clearly: define areas of authority and
responsibility; appropriately delegate the authority and responsibility throughout the agency;
establish a suitable hierarchy for reporting; support appropriate human capital policies for
hiring, training, evaluating, counseling, advancing, compensating and disciplining personnel;
and uphold the need for personnel to possess and maintain the proper knowledge and skills to
perform their assigned duties as well as understand the importance of maintaining effective
internal control within the organization.” Also, the Office of Federal Procurement Policy
Letter 05-01 states that the agency’s Chief Acquisition Officer or equivalent “is responsible
for assessing the current skills inventory of the workforce, identifying short- and long-term
agency needs, and establishing plans, including recruitment and retention strategies, for
obtaining the acquisition workforce resources and skills required to meet future agency
mission needs.”

The conditions noted above were the result of COTRs and contract points of contact not
being adequately trained, and not provided written responsibilities and functions required to
accomplish the objectives of their delegated responsibilities. Also, the COTRs and contract
points of contact were not monitored by the Contracting Officer to ensure that they
performed their responsibilities, as required under FAR.

As a result of the conditions noted above, contracts worth several million dollars were not
adequately monitored, which resulted in inappropriate use of contract modifications to extend
periods of performance and contract values. Contractors were authorized to proceed on
contracts, without proper review of their performance by the Contracting Officer. Also,
COTRs and contract points of contact were not effective in their contract monitoring
activities, which resulted in an increased risk that procurement objectives were not being
met.




                                               22

Recommendations
We recommend that the FEC Procurement Office:

3a. 	   Ensure that COTRs and contract points of contact are provided with adequate
        training, written responsibilities, and appropriate monitoring tools necessary to
        accomplish the objectives of their delegated responsibilities.

3b. 	   Monitors and advises COTRs and contract points of contact to ensure that they
        perform their responsibilities, as required under FAR and best practices
        recommended under DCAA guidelines.

Management’s Response
3a. 	   Management concurs. Management believes a number of positive steps have been
        taken proactively by FEC to address this issue. In FY 2009, the OCFO sponsored
        COTR training and was able to bring 11 COTRs into training compliance.
        Additionally, the Finance Committee approved additional funds to continue the
        training initiative. Currently, further COTR training is scheduled for the first quarter
        of FY 2010. Also, since the beginning of FY 2009, when a COTR is officially
        designated, the Procurement Division issues COTR letters, detailing the
        responsibilities of the COTR and where to go for assistance.

3b. 	   Management concurs. Again, the OCFO continues to improve the oversight of all
        aspects of the procurement processes.

Auditor’s Comment
With respect to recommendations 3a and 3b, the agency’s planned actions are responsive
to the audit issues identified and, when fully implemented, should satisfy the intent of the
audit recommendations.


4. Contracting Data Reported in the Federal Procurement Data System is
   not Accurate
The Office of Federal Procurement Policy Act, as amended, 41 U.S.C. 401 et. seq., and
Federal Acquisition Regulation Subpart 4.6, Contract reporting, require that federal agencies
establish and maintain a computer based system to collect and report procurement data to the
Federal Procurement Data System - Next Generation (FPDS-NG) for collecting and
disseminating statistical procurement data to Congress, the Executive Branch and the private
sector. The Federal Procurement Data Center (FPDC) operates the FPDS-NG, and is located
at the General Services Administration. The FPDC produces reports, which examine various
aspects and impacts of the federal acquisition process. The statistical data are used for
geographical analysis, market analysis, and analysis on the impact of congressional and


                                               23

presidential initiatives in socio-economic areas such as small business, small disadvantaged
business, women-owned business, historically black colleges/universities or minority
institutions, HUBZone awards, and awards to a nonprofit agency employing people who are
blind or severely disabled.

During our review, we noted that the FEC contracting data reported in the Federal
Procurement Data System (FPDS) was not accurate. For procurements included in our
review sample, we noted the following exceptions:

    •	 Under-reporting, due to failure to input accurate obligation data in the FPDS-NG;
    •	 Failure to report all modifications, including zero dollar modifications;
    •	 Over-reporting, due to input of the entire award amount (maximum that may be spent
       over the term of contract) versus each obligation as incurred, with the supporting data
       included in FPDS-NG of maximum award, and award-to-date values;
    •	 Over-reporting, due to duplication of data; the input of the initial or base award when
       contract was originally signed, and a subsequent input of total award to date;
    •	 Over-reporting, due to failure to process a reduction for de-obligations for items such
       as BPAs, where the actual obligation is likely to be more than the annual spending.
       BPAs typically require an adjustment at year end for the obligated versus actual
       expenditure variance;
    •	 Over-reporting, due to failure to record cancelled contracts with remaining obligated
       balances, or de-obligation from those with remaining balances, such as time-and-
       material type contracts;
    •	 Incorrect application of funds to the respective fiscal years; and
    •	 Renaming or renumbering contracts for fiscal years, based on FEC’s internal financial
       system reporting (e.g. 06C####, 07C####, 08C####), when in fact, the base award
       and option years are tied to the contract number from which it originated, but the
       contract number is updated each fiscal year due to limitations in prior FEC financial
       reporting systems.

In October 2007, the FEC began using ComprizonSuite to record and manage its
procurement activities. The system has a feature that supports mandatory reporting to FPDS-
NG if a system setting is enabled. Currently, the FEC Procurement Office has enabled the
mandatory reporting feature, but we noted that the system control can be disabled at any
time. For the eleven (11) items included in the supplemental sample, all were accurately
reported in FPDS-NG, due to the fact that all of those procurements originated in
ComprizonSuite, and the system control was enabled. We also noted, however, that older
procurements initiated prior to ComprizonSuite implementation continued to have reporting
irregularities. The older procurements were not migrated to the ComprizonSuite system and,
therefore, were not initially or subsequently subject to mandatory reporting. Errors were
noted with FPDS-NG reporting for those older procurements that required modification in
2008. In total, for the 87 procurements reviewed that were required to be reported, there was
approximately $12.9 million in absolute dollar value errors6 relating to over or under-

6
 Errors were reported as absolute or positive values. Errors for under reporting and over reporting were not
netted or offset against each other.


                                                      24

reporting values associated with $18.7 million in reportable obligations. The error rate is
approximately 69 percent.

FAR Subpart 4.606(a) Reporting data requires agencies to report to FPDS-NG, contract
actions over the micro-purchase threshold, regardless of the solicitation process used.
Agencies must report any modification to these contract actions that change previously
reported contract action data, regardless of dollar value.

The condition noted above was due to the lack of a process to consistently report contract
amounts in FPDS-NG, and review of the amounts reported to ensure that they agree with
procurement obligation values.

Failure to maintain records on critical contract financial and performance data increases the
risk of inaccurate reporting for both internal and external users, such as the Commissioners,
management, congressional representatives and the public. When accurate contract data and
other necessary contract information is not maintained, there is an increased risk of non-
compliance with governing regulations, and non-accountability for federal resources.

Recommendations
4a. 	   The FEC Procurement Office should establish processes to consistently and
        accurately report contract amounts in FPDS-NG.

4b. 	   The FEC should provide adequate oversight of FPDS-NG reporting and review the
        amounts reported, to ensure that they agree with contract values.

Management’s Response
4a. 	   Management concurs. The Procurement Division has already initiated steps to ensure
        that FEC complies with the FPDS reporting requirements. As part of the current
        procurement policy, the OCFO has outlined the process to ensure this is
        accomplished.

4b. 	   Management concurs. See the response for #4a.

Auditor’s Comment
With respect to recommendations 4a and 4b, the agency’s planned actions are responsive
to the audit issues identified and, when fully implemented, should satisfy the intent of the
audit recommendations.




                                               25

5. Payments on Time-and-Materials, and Labor-Hour Contracts, were not
   Adequately Supported
Our audit sample included twenty-three (23) Time-and-Materials and Labor-Hour contracts
with payments totaling approximately $4.1 million. We reviewed the procurement files to
determine whether payments on these contracts were properly supported by timesheets and
approved by the COTR assigned to the contract. We requested that FEC management
provide the invoices, timesheets, resumes of contractors’ personnel charged to the contracts,
and other necessary supporting documentation. We found that the FEC COTRs reviewed
vendor invoices and approved payments, totaling $2.6 million, for twenty-one (21) contracts.
The vendors, however, did not provide the employee timesheets to support the amounts
invoiced for services for seventeen of the twenty-one (21) contracts.

Pursuant to FAR 52.232-7, Payments under Time-and-Materials, and Labor-Hour contracts,
the regulation states that the Government will pay the contractor upon the submission of
vouchers approved by the CO or the authorized representative. The Contractor shall
substantiate vouchers (including any subcontractor hours reimbursed at the hourly rate in the
schedule) by evidence of actual payment and by:

       •	 Individual daily job timekeeping records;
       •	 Records that verify the employees meet the qualifications for the labor categories
          specified in the contract; or
       •	 Other substantiation approved by the contracting officer.

The condition noted above was the result of prior Contracting Officers and COTRs not
having a full understanding of the requirements of FAR, as it relates to documentation
needed to support payments on Time-and-Materials, and Labor-Hour Contracts. It was also
the result of not adequately communicating the FAR requirements for payment on these
types of contracts to the COTRs and Task Monitors.

As a result of the condition noted above, improper payments of approximately $2.6 million
were made to contractors, due to a lack of documentation to support the payments.
Therefore, the FEC was not in compliance with federal laws and regulations with respect to
payment approvals on time-and-materials and labor-hour contracts.

Recommendation
5a.    The FEC should develop a communication and training plan to ensure that
       contracting personnel fully understand the requirements of FAR as they relate to
       payments on Time-and-Materials and Labor-Hour Contracts. This may include
       instruction on performing the following:
           •	 Detailed analysis of hours billed, compared to an expected level of effort for
               the period;
           •	 Analysis of project milestone progress, compared to the level of effort
               expended to date;


                                             26

           •	 Analysis of vendor staff assigned and invoiced, compared to those proposed;
              and
           •	 Billing rates and employee grades/titles, compared to contract terms.

Management’s Response
5a. 	   Management concurs that it is important to ensure the appropriate use of Time-and-
        Materials and Labor-Hours Contracts. Management notes that GSA Schedule
        provides for the ability for FEC to contract for labor-hour contracts which supplement
        FEC government staff as needed and the agency should take advantage of this
        contract option as appropriate. Management also notes that Time-and-Materials
        contracts are unusual for FEC.

Auditor’s Comment
5a. 	   The agency’s planned actions are responsive to the audit issue identified and,
        when fully implemented, should satisfy the intent of the audit recommendation.
        We do not dispute that agencies may contract for services using labor-hour or
        time-and-materials contracts; however, the recommendation is that management
        provides training and oversight to ensure compliance with the FAR when such
        procurement instruments are used.


6. 	    Contract Close-out Procedures are not Compliant with the FAR
Contract close-out is a critical process in the life of a contract and should be a continuous
effort to ensure that contract files are administered in accordance with FAR. FEC is required
by FAR 4.804-5, Procedures for Closing out Contract Files to perform administrative close-
out. In addition, FAR 4.805, Storage, Handling, and Disposal of Contract Files, requires
FEC to establish procedures for handling, storing, and disposing of contracts. During our
review, we noted that FEC currently has no formal contract close-out process or documented
procedures. We identified sixteen (16) contracts within our sample that were subject to
close-out; however, we noted that the contracts were not closed out as required by FAR.

Based on our review, we also noted that of the invoices and receiving reports provided by the
Finance Office, approximately 16% of the final receiving reports were not marked as final by
the Program Office or Finance Office. The fact that the receiving reports were not marked
final, and the Finance Office is not made aware that an invoice is the final invoice payable,
creates a risk that subsequent requests for payment may be presented by the vendor and made
by the FEC in error. Furthermore, receipt of a final invoice also serves as a reminder that the
contract file can, and should be closed, after the final invoice has been paid; and other formal
close-out procedures should be completed.

The Director of Procurement indicated that FEC did not institute formal contract close-out
procedures for contracts, primarily to accommodate this procurement and contract
management audit. The Director of Procurement also indicated that the reason for this action


                                               27

was to ensure that all needed files were available for the audit. We find that the condition
noted above was the result of inadequate internal control over the contract administration
process. Specifically, FEC did not have a process in place for identifying contracts that
should be closed out, when the close-out should commence, the procedures to be performed,
and documentation to be maintained as evidence of proper close-out in accordance with
FAR.

As a result of this condition, there is increased risk of contracts being closed out in a manner
that is not in compliance with the provisions of the FAR. Also, excess funds on completed
contracts that are not de-obligated presents the opportunity for fraud, waste and abuse of the
remaining funds that may be subject to inappropriate use.


Recommendation
6a. 	   The FEC Procurement Office should immediately institute formal contract close-out
        procedures, and establish and implement adequate internal control over the contract
        administration process.

Management’s Response
6a. 	   Management concurs that FEC can improve on executing its contract close-out
        procedures. As mentioned in Recommendation #1, the OCFO has established a
        current procurement policy that addresses contract close out and needs to ensure that
        the agency adheres to the procurement policy.

Auditor’s Comment
6a. 	   The agency’s planned action is responsive to the audit issues identified and, when
        fully implemented, should satisfy the intent of the audit recommendation.


7. 	 Lack of Adherence with Information Technology Management
     Reforms
The Clinger-Cohen Act (CCA), formerly the Information Technology Management Reform
Act of 1996 (ITMRA), is a 1996 United States federal law designed to improve the way the
federal government acquires, uses and disposes of information technology (IT). The CCA
supplements the information resources management policies by establishing a comprehensive
approach for executive agencies to improve acquisition and management of the information
resources, by:

        •	 focusing information resource planning to support their strategic missions;
        •	 implementing a capital planning and investment control process that links to
           budget formulation and execution; and



                                               28

       •	 rethinking and restructuring the way they do their work before investing in
          information systems.

The Clinger-Cohen Act of 1996 directed the development and implementation of a process to
maximize the benefits of information technology (IT) management within the federal
government. Micro agencies reporting under the Accountability of Tax Dollars Act of 2002,
which includes the FEC, are encouraged to comply with best practice principles as outlined
in the Clinger-Cohen Act for information technology investments. Based on our review of
FEC documents, which include the FEC’s Annual Performance and Accountability Report
(PAR), the FEC voluntarily complies with both the spirit and intent of the CCA.

Currently, the FEC, through the Information Technology Division (ITD), brings various
users together to ensure that the requirements of each are met for any proposed information
technology acquisition. The basic role of the users is to review, modify, and suggest changes
in priorities, and to provide a forum where each major division has an opportunity to ensure
that technology is implemented in a manner that supports the respective divisions, as well as
the FEC’s mission. We noted, however, that a charter has not been established to enunciate
the roles of ITD and the various users. According to the Chief Information Officer (CIO),
the FEC did not institute a formal project review group. Instead, the CIO holds meetings to
encourage partnership among the divisions, and maintains a spreadsheet which lists
information technology projects to support the FEC’s core mission and strategic plans.
However, there is no prioritization of the projects indicated in the spreadsheet, and meeting
minutes are not kept. It is therefore not possible to determine whether all potential users
have been surveyed and provided input on strategic information technology needs and
prioritization.

Due to the lack of a framework surrounding IT procurement planning and review, we noted
that FEC made information technology investments, using acquisition processes that did not
adhere to the federal agency responsibilities assigned under the CCA. Specifically, the FEC
did not establish a proper process for maximizing the value of information technology
investments, and did not adequately ensure technical soundness and viability of information
technology investments through comprehensive procurement planning and risk assessment.
It also did not adequately assess the value of the information technology investments in terms
of its total cost of ownership, and did not properly establish the criteria for approving the
individual investments.

Section 5122 of the Clinger-Cohen Act of 1996, Division E of Public Law 104-106, assigns
each agency responsibility to undertake capital planning and investment control by
establishing a “process for maximizing the value and assessing and managing the risks of
information technology acquisitions of the executive agency,” throughout the investment life
cycle. Implicit in this responsibility is the need to identify the needs or conditions to be met,
taking into account the possibility of conflicting requirements of the various stakeholders,
such as beneficiaries or users.

As a result of the condition noted above, the FEC may not have maximized value or ensured
that all IT procurements were technically viable, fully met user needs, and presented the best



                                               29

value for money. There is an increased risk that the FEC may have acquired information
technology products and services that did not fully meet its needs, resulting in wasted funds.

Recommendation
7a. 	   The FEC should establish a formal project review group to adhere to information
        management technology reforms and federal agency responsibilities consistent with
        the intent under the Clinger-Cohen Act. Specifically, the project review group
        should:
                •	 Develop a formal charter,
                •	 Include representatives across the agency to include staff from OCFO,
                    Budget and Procurement areas; and
                •	 Document key decisions to include information technology priorities, and
                    retain records of meeting minutes and decisions.

Management’s Response
7a. 	   Management concurs. The Office of the Chief Information Officer (OCIO) has
        already begun to establish a formal review process for all IT decisions within the
        FEC.
               •	 The FEC established a formal IT project review group in 2006 to review
                   all Information Technology projects.
               •	 The FEC agrees that a formal charter should be established.
               •	 The board currently invites representatives from all functional areas of the
                   agency including the CFO’s office, which includes procurement and
                   budget, and all appropriate representatives are encouraged to attend.
               	 The FEC has kept a spreadsheet of decisions and actions and will improve
                   upon documentation efforts by following the same documentation process
                   that the Finance Committee has established.

        Management notes that the particular provision of the Clinger-Cohen Act referenced
        in the body of the Audit Report does not apply to the FEC. Nevertheless,
        Management concurs that the FEC should follow best practices in relation to the
        Clinger-Cohen Act.

Auditor’s Comment
7a. 	   The agency’s planned action is responsive to the audit issues identified and, when
        fully implemented, should satisfy the intent of the audit recommendation.

        With respect to Management’s comment that the FEC is not required to comply with
        Section 5122 of the Clinger-Cohen Act because of its exemption in complying with
        the Paperwork Reduction Act; we included additional clarifying language in the
        report to acknowledge Management’s voluntary compliance with the “spirit and
        intent” of the Clinger-Cohen Act, as stated in FEC Performance and Accountability
        Reports.


                                              30

8. 	   Blanket Purchase Agreements were not Used in Accordance with
       FAR
A blanket purchase agreement (BPA) is a simplified acquisition method that government
agencies utilize to meet projected, repetitive needs for supplies and services. BPAs reduce
redundancies in the procurement process, and offer pricing stability because negotiated prices
are fixed for the duration of the contract performance period. By using BPAs, agencies are
able to avoid creating numerous purchase orders for a broad class of supplies and services.
During our review, we noted several instances where BPAs were not used, as prescribed in
the FAR. Specifically, we noted the following:

       •	 New BPAs were issued each year, with a period of performance of one year,
          instead of placing multiple procurement actions against an established BPA. For
          example, in a procurement for leased equipment, two separate BPAs were written
          with periods of performance from October, 2005 through September, 2006; and
          October, 2006 through October, 2007, instead of retaining a single BPA and
          placing orders against it for two or more years.
       •	 In 10 of the 12 BPAs included in our sample, there was no evidence of review of
          prior fiscal year’s activity at the beginning of a new year. BPAs were not
          reviewed to determine whether they should remain active for future procurements
          in the next fiscal year.
       •	 Multiple bids were not obtained for 7 of the 12 BPAs included in our sample.

FAR – Part 8.4, Federal Supply Schedules, Subpart Part 8.405-3, Blanket Purchase
Agreements, requires that the ordering activities may establish BPAs under any schedule
contract to fill repetitive needs for supplies or services. In determining how many BPAs to
establish, the ordering activity should consider the scope and complexity of the requirement,
the need to periodically compare multiple technical approaches or prices; the administrative
costs of BPAs; and the technical qualifications of the schedule contractor(s).

Commission Bulletin, 2004-04A, FEC Procurement Procedures, Revised May 18, 2006
requires that:

               At the beginning of each fiscal year, the Administrative Officer (AO) reviews
               the previous fiscal year's procurement activity for each Blanket Purchase
               Agreement. If there are ten (10) or more procurement actions made against the
               BPA, a new BPA will be established for the new fiscal year. If there are
               fewer than ten (10) procurement actions, the AO will consult with the
               Purchasing Agent (PA) to determine if the BPA is still needed. If not, it is not
               renewed for the current fiscal year. If the services are still needed, a purchase
               order will be used.

               In order to promote competition, BPAs are established with at least three
               vendors. The AO or PA prepares a Procurement Request (PR) including a


                                              31

                general description of the type of supplies/services to be ordered and the
                process for ordering and acceptance of each order. The estimated total for
                each BPA is based on the previous fiscal year's total expenditures.

The inefficient use of BPA procurement instruments resulted from a failure to consistently
apply the FAR and FEC internal guidance. As a result, the procurement process was not
managed in the most efficient and effective manner. For example, there were redundancies
involved in the yearly creation of new BPAs. Although we noted this inefficiency, we
identified no financial impact as a result of multiple BPAs being issued and presumably
negotiated. Also, without review of multiple bids, there is the risk that the FEC did not
obtain the best value for the items procured.
Recommendation
8a. 	   The FEC should review FAR guidance on different procurement instruments, such as
        BPAs, and institute policies and procedures to ensure that the instruments are used as
        prescribed. We also recommend that management obtain and review multiple bids as
        part of the BPA procurement process.

Management’s Response
8a. 	   Management concurs. The OCFO does review all procurement instruments to
        determine the best contract approach. The Procurement Division is in the process of
        formalizing these determinations as part of the procurement policy.

Auditor’s Comment
8a. 	   The agency’s planned action is responsive to the audit issues identified and, when
        fully implemented, should satisfy the intent of the audit recommendation.


9.      C
        	 ontract File Recordkeeping is Incomplete
A complete, accurate, and readily accessible contract filing system is a key component to
efficient operations of a procurement management office. As outlined in FAR 4.8,
Government contract files, the head of each office performing contracting, contracts
administration or paying functions shall establish files containing the records of contractual
actions. The documentation in the files shall be sufficient to constitute the complete history
of the transaction for the purposes of:

     •	 Providing complete background as a basis for informed decisions at each step in the
        acquisition process;
     •	 Supporting actions taken;
     •	 Providing information for reviews and investigations; and,
     •	 Furnishing essential facts in the event of litigation or congressional inquiry in 

        accordance with FAR 4.803, Contents of contract files.




                                              32

The files to be established include:
   •	 A file for cancelled solicitations;
   •	 A file for each contract; and
   •	 A general file for a contractor containing documents relating to:
            o	 No specific contract;
            o	 More than one contract; or
            o	 The contractor in a general way (e.g., contractor’s management systems, past
                performance, or capabilities). FAR 4.801 (c), Government contract files.

Files must be maintained in a standard manner to ensure:
    •	 Effective documentation of contract actions;
    •	 Ready accessibility to users;
    •	 Minimal establishment of duplicate and working files;
    •	 Safeguarding of classified documents;
    •	 Conformance with agency regulations for file location and maintenance;
    •	 Contractor bid or proposal information or source selection information is protected
       from disclosure to unauthorized persons; and
    •	 Contract files are retained in an appropriate combination of medium (paper,
       electronic, etc.) in accordance with FAR 4.802(f), Contract files.

Further, FAR 4.805, Storage, handling, and disposal of contract files, states that “(a)
Agencies must prescribe procedures for the handling, storing, and disposing of contract files.
These procedures must take into account documents held in all types of media, including
microfilm and various electronic media.”

Commission Bulletin 2004-04A, FEC Contracting Procedures, dated May 18, 2006, defines
the forms required to evidence procurement approval and authorization as follows:

       “After the delivery order is completed, the CO signs the Order for Supplies and
       Services form; attaches the applicable contract clauses; prepares a funding request
       memo to the Accounting Officer, through the Administrative Officer, that provides
       the delivery order award information, such as the: 1) vendor name; 2) delivery
       order/contract number; 3) description of goods or services procured; 4) award
       amount; 5) Division Code and Object Class and forwards the funding request memo
       and documentation to the Administrative Officer. The Administrative Officer
       reviews the funding request memo and backup documentation and prepares an
       Obligation of Funds authorization memo to the Accounting Officer. Each obligation
       memo includes the same award information as the CO funding request memo, plus an
       Obligation number.”

Our review of contract files noted the following:

Location and Storage of Procurement Files
Initially, the Procurement Office was unable to locate some of the files selected for the
sample. In fact, the Office of the Inspector General expended a significant amount of time in


                                              33

assisting the Procurement Office in locating the procurement files. For example, the OIG
was informed that thirteen boxes of procurement files were located in a closet in the
Procurement area that might contain the missing files. Inventories of the records held in
storage were not available and, therefore, each box had to be reviewed manually to determine
whether the sample items were still maintained at the agency or sent to off-site storage. For
items that still could not be located, the OIG reviewed the General Services Administration’s
SF-135, Records Transmittal and Receipt forms for the FEC, which detail the records
removed to off-site storage facilities. The SF-135s were reviewed in order to identify and
determine the number of boxes of contract files that had been accessioned to the National
Archives and Records Administration (NARA) Records Center in Suitland, Maryland, and
whether a detailed inventory of the records removed from the FEC was available for review.
While some SF-135s were located and reviewed, the supporting documentation of detailed
inventory lists were not included, and the OIG could not be assured that all SF-135s were
provided. Instead, the OIG traveled to Suitland Maryland to review source documentation
held by NARA, and requested retrieval of several boxes of records to locate the remaining
sample items.

Completeness of Procurement Files
Our test procedures included a review of funding request memos, and obligation memos in
the Delivery Order and Contract files. Based on our review, we noted the following:

        •	 14 of the 28 delivery order files did not contain obligation and funding request
           memos.
        •	 15 of the 34 contract files did not contain obligation memos.
        •	 15 of the 34 contract files did not contain funding request memos.

Central Contractor Registration Verification not Evidenced in Procurement Files
The Central Contractor Registration (CCR) has become an essential element of the financial
management and payment process for the federal government, and provides the essential link
between the contracting activity and the Electronic Funds Transfer system. FAR Subpart
4.11, Central contractor registration, provides the policies and procedures for requiring
contractor registration in the CCR database, which is part of the Business Partner Network.
The registration increases visibility of vendor sources for specific supplies and services, and
establishes a common source of vendor data for the Government.

FAR 4.1103 (a), CCR procedures, requires that unless the acquisition is exempt under
4.1102, CCR policy, the contracting officer:

   (1) Shall verify that the prospective contractor is registered in the CCR database before
       awarding a contract or agreement. Contracting officers are encouraged to check the
       CCR early in the acquisition process, after competitive range has been established,
       and then communicate to the unregistered offerors that they must register;
   (2) Should use the Data Universal Numbering System (DUNS) number or, if applicable,
       the DUNS+4 number, to verify registration;




                                              34

      (3) Need not verify registration before placing an order or call if the contract agreement
          includes the clause 52.204-7, CCR, or 52.212-4(t), Contract Terms and Conditions
          Commercial Items, or similar agency clause.7

We reviewed the procurement files to ensure that documentation attesting to vendors’
registration in the CCR was available in the files. While the FAR does not require
documentation be retained in the file, the failure to record the verification in some physical
manner negates the ability to support that the CCR verification was performed. Our review
noted that four (4) of the twenty-eight (28) delivery order files, and six (6) of the thirty-four
(34) contract files did not contain documentation to substantiate the FEC’s verification of the
vendors’ registration in the CCR database.

The condition noted above was the result of inadequate internal control over the process of
maintaining procurement files, as well as inadequate supporting documentation on funding
requests, obligation approvals, and CCR registration status within the files.

Without complete and accurate procurement files, the agency may not be able to support
business decisions or progress of procurement activities, as required. The accessibility,
consistency, and accuracy of procurement records which detail agency business activities are
essential to:

      •	 Ensure the delivery of quality products and services in a timely manner, and on
         budget; and
      •	 Provide public confidence in the agency’s ability to use taxpayer funds in an efficient
         and effective manner.

As a result of the condition noted above, the FEC was not compliant with the FAR and
internal policies, which increased the risk of inadequate oversight and internal control over
the procurement process. Failure to adequately maintain and dispose of procurement files
after close-out violates the Federal Records Act.

Recommendations
The Procurement Office should:

9a.      Implement procedures to ensure that adequate documentation is maintained and
         retained in the contract files. This process should be sufficient to enable supervisory
         review of the contract files to ensure compliance.

9b.      Ensure that procurement files are adequately stored in a manner that facilitates
         retrieval, and that files are archived and destroyed in accordance with its NARA
         approved record schedule.


7
 This is interpreted to apply to delivery orders and task orders written under indefinite delivery/indefinite
quantity type procurements or calls against Blanket Purchase Agreements where the vendor CCR status was
verified at the time the procurement was initially awarded.


                                                       35

9c. 	   Take the necessary steps to maintain evidence of vendors’ CCR registration in the
        contract files.

Management’s Response
9a.     Management concurs. Currently, as part of the procurement policy update, the OCFO
        expects to identify specific file data to be maintained with the use of indexes.

9b.     Management concurs. See Management’s Response for #9a. In addition, the draft
        procurement policy contains a chapter outlining the disposition of files, in accordance
        with NARA standards.

9c.     Management concurs. As part of the procurement policy update, the
        Procurement Division plans to perform a monthly download of up-to-date CCR
        information into Comprizon.

Auditor’s Comment
With respect to recommendations 9a through 9c, the agency’s planned actions are
responsive to the audit issues identified and, when fully implemented, should satisfy the
intent of the audit recommendations.




                                              36

Attachment


                  SUMMARY OF AUDIT FINDINGS, RECOMMENDATIONS AND MANAGEMENT’S RESPONSE
       Finding               Recommendation                       Management’s Response
                                                                         Management concurs that acquisition planning is important to ensure effective
                                                                         procurement management. Based on the information provided in the audit report,
1. Lack of Adequate    1a. The Contracting Officer should finalize
                                                                         Management concurs that the documentation in the contract files can be improved.
Acquisition Planning   and implement policies and procedures to
                                                                         Management does not concur that there are not sufficient procurement policies
and                    ensure all aspects of procurement planning
                                                                         implemented. In October 2008, the Office of the Chief Financial Officer (OCFO)
Pre-Award              and pre-award activities are performed, as
                                                                         issued procurement policies and plans to issue a procurement directive in FY
Administration         required under the FAR.
                                                                         2010.

                       1b. The FEC should establish and implement a
                       continuous monitoring program to ascertain        Management concurs. The OCFO continues to seek opportunities to improve the
                       the quality of its procurement activities and     procurement process. As part of the internal control program, OCFO expects to
                       ensure consistency in procurement planning        establish an internal review of procurement activities.
                       and awards.

                       1c. In addition to the Director of Procurement,
                       employed by the FEC, and delegated the
                       responsibility of Contracting Officer; the FEC    Management concurs. In FY 2009, OCFO is considering a pilot cross-training
                       should consider and address the need to           plan to establish procurement skills in other areas of the FEC to assist with
                       establish adequate human capacity in              succession planning and backup. The OCFO expects to formalize the program in
                       procurement management to reduce the risk to      FY 2010.
                       the agency during periods of absence of the
                       Contracting Officer.

                                                                         Management concurs. As mentioned in Recommendation #1, the OCFO has
                                                                         established a more formal procurement process as outlined by the current
2. Process for         2a. The Procurement Office should fully
                                                                         procurement policy. Additionally, since April 2008, procurement actions are now
Approving Contract     enforce the agency's policies on required
                                                                         processed electronically through Comprizon. This change has significantly
Awards Requires        approvals before executing procurement
                                                                         reduced financial and budget errors. The OCFO staff also performs reconciliation
Improvement            awards and modifications.
                                                                         between Comprizon and Pegasys to ensure timely processing of financial
                                                                         documents.




                                                                          37

                   SUMMARY OF AUDIT FINDINGS, RECOMMENDATIONS AND MANAGEMENT’S RESPONSE
       Finding                Recommendation                       Management’s Response
                                                                            Management concurs. Management believes a number of positive steps have been
                                                                            taken proactively by FEC to address this issue. In FY 2009, the OCFO sponsored
                          3a. Ensure COTRs and contract points of
3. Lack of Adequate                                                         COTR training and was able to bring 11 COTRs into training compliance.
                          contact are provided with adequate training,
Oversight and                                                               Additionally, the Finance Committee approved additional funds to continue the
                          written responsibilities, and appropriate
Monitoring of                                                               training initiative. Currently, further COTR training is scheduled for the first
                          monitoring tools necessary to accomplish the
Procurement Activities                                                      quarter of FY 2010. Also, since the beginning of FY 2009, when a COTR is
                          objectives of their delegated responsibilities.
                                                                            officially designated, the Procurement Division issues COTR letters, detailing the
                                                                            responsibilities of the COTR and where to go for assistance.

                          3b. Monitors and advises COTRs and contract
                          points of contact to ensure that they perform
                                                                            Management concurs. Again, the OCFO continues to improve the oversight of all
                          their responsibilities, as required under FAR
                                                                            aspects of the procurement processes.
                          and best practices recommended under DCAA
                          guidelines.

                          4a. The FEC Procurement Office should
4. Contracting Data                                                         Management concurs. The Procurement Division has already initiated steps to
                          establish processes to consistently and
Reported in the Federal                                                     ensure that FEC complies with the FPDS reporting requirements. As part of the
                          accurately report contract amounts in FPDS-
Procurement Data                                                            current procurement policy, the OCFO has outlined the process to ensure this is
                          NG.
System is not Accurate                                                      accomplished.
                          4b. The FEC should provide adequate
                          oversight of FPDS-NG reporting and review
                                                                            Management concurs. See the response for #4a.
                          the amounts reported, to ensure that they agree
                          with contract values.

                                                                            Management concurs that it is important to ensure the appropriate use of Time-
5. Payments on Time-      5a. The FEC should develop a communication
                                                                            and-Materials and Labor-Hours Contracts. Management notes that GSA Schedule
and-Materials and         and training plan to ensure that contracting
                                                                            provides for the ability for FEC to contract for labor-hour contracts which
Labor-Hour Contracts      personnel fully understand the requirements of
                                                                            supplement FEC government staff as needed and the agency should take
were not Adequately       FAR as they relate to payments on Time-and-
                                                                            advantage of this contract option as appropriate. Management also notes that
Supported                 Materials and Labor-Hour Contracts.
                                                                            Time-and-Materials contracts are unusual for FEC.




                                                                             38

                  SUMMARY OF AUDIT FINDINGS, RECOMMENDATIONS AND MANAGEMENT’S RESPONSE
       Finding               Recommendation                       Management’s Response
                        6a. The FEC Procurement Office should
6. Contract Close-Out
                        immediately institute formal contract close-      Management concurs that FEC can improve on executing its contract close-out
Procedures are not
                        out procedures, and establish and implement       procedures. As mentioned in Recommendation #1, the OCFO has established a
Compliant with the
                        adequate internal control over the contract       current procurement policy that addresses contract close out and needs to ensure
FAR
                        administration process.                           that the agency adheres to the procurement policy.


                                                                          Management concurs. The Office of the Chief Information Officer (OCIO) has
                                                                          already begun to establish a formal review process for all IT decisions within the
                        7a. The FEC should establish a formal project
                                                                          FEC.
                        review group to adhere to information
                                                                          • The FEC established a formal IT project review group in 2006 to review all
                        management technology reforms and federal
                                                                             Information Technology projects.
                        agency responsibilities consistent with the
                        intent under the Clinger-Cohen Act.               • The FEC agrees that a formal charter should be established.
7. Lack of Adherence
                        Specifically, the project review group should:    • The board currently invites representatives from all functional areas of the
with Information
                        • Develop a formal charter,                          agency including the CFO’s office, which includes procurement and budget,
Technology
                                                                             and all appropriate representatives are encouraged to attend.
Management Reforms      • Include representatives across the agency to
                           include staff from OCFO, Budget and            • The FEC has kept a spreadsheet of decisions and actions and will improve upon
                           Procurement areas; and                            documentation efforts by following the same documentation process that the
                                                                             Finance Committee has established.
                        • Document key decisions to include
                                                                          Management notes that the particular provision of the Clinger-Cohen Act
                           information technology priorities and retain
                                                                          referenced in the body of the Audit Report does not apply to the FEC.
                           records of meeting minutes and decisions.
                                                                          Nevertheless, Management concurs that the FEC should follow best practices in
                                                                          relation to the Clinger-Cohen Act.

                        8a. The FEC should review FAR guidance on
                        different procurement instruments, such as
8. Blanket Purchase
                        BPAs, and institute policies and procedures to    Management concurs. The OCFO does review all procurement instruments to
Agreements Were Not
                        ensure that the instruments are used as           determine the best contract approach. The Procurement Division is in the process
Used in Accordance
                        prescribed. We also recommend that                of formalizing these determinations as part of the procurement policy.
with FAR
                        management obtain and review multiple bids
                        as part of the BPA procurement process.




                                                                           39

                   SUMMARY OF AUDIT FINDINGS, RECOMMENDATIONS AND MANAGEMENT’S RESPONSE
       Finding                Recommendation                       Management’s Response
                       9a. Implement procedures to ensure that
                       adequate documentation is maintained and
9. Contract File                                                        Management concurs. Currently, as part of the procurement policy update, the
                       retained in the contract files. This process
Recordkeeping                                                           OCFO expects to identify specific file data to be maintained with the use of
                       should be sufficient to enable supervisory
Incomplete                                                              indexes.
                       review of the contract files to ensure
                       compliance.

                       9b. Ensure procurement files are adequately
                       stored in a manner that facilitates retrieval,   Management concurs. See Management’s Response for #9a. In addition, the draft
                       and that files are archived and destroyed        procurement policy contains a chapter outlining the disposition of files, in
                       according with its NARA approved record          accordance with NARA standards.
                       schedule.

                       9c. Take the necessary steps to maintain
                                                                        Management concurs. As part of the procurement policy update, the Procurement
                       evidence of vendors’ CCR registration in the
                                                                        Division plans to perform a monthly download of up-to-date CCR information
                       contract files.
                                                                        into Comprizon.




                                                                         40

     CONTACTING THE OFFICE OF INSPECTOR GENERAL
The success of the OIG mission to prevent fraud, waste, and abuse depends on the
cooperation of FEC employees (and the public). There are several ways to report
questionable activity.




      Call us at 202-694-1015 (a confidential or anonymous message can be
      left 24 hours a day/7 days a week) or toll-free at 1-800-424-9530 (press 0;
      then dial 1015 - Monday - Friday 8:30am – 5:00pm).




      Write or visit us - we are located at: 	 Federal Election Commission
                                             Office of Inspector General
                                             999 E Street, N.W., Suite 940
                                             Washington, D.C. 20463

      Mail is opened by OIG staff members only.




You can also fax (202-501-8134) or contact us by e-mail at: oig@fec.gov.
Website address: http://www.fec.gov/fecig/fecig.shtml


Individuals may be subject to disciplinary or criminal action for knowingly making
a false complaint or providing false information.
